           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Attestation Announcement—Review                 Date:   January 14, 2009
           of FY 2008 Drug Control Obligation Summary and
           Performance Summary Reports, NHTSA
           Project Number 09F3006F000
                                                                     Reply To   JA-20
  From:    Rebecca C. Leng                                           Attn Of:
           Assistant Inspector General for Financial and
            Information Technology Audits
    To:    Acting National Highway Traffic Safety Administrator

           The Office of Inspector General (OIG) is initiating a review of the National
           Highway Traffic Safety Administration (NHTSA) fiscal year (FY) 2008 Drug
           Control Obligation Summary and Performance Summary Reports. The review
           will be conducted in accordance with the attestation standards established by the
           American Institute of Certified Public Accountants and Generally Accepted
           Government Auditing Standards prescribed by the Comptroller General of the
           United States.

           The objective of our review is to provide negative assurance as to whether any
           information came to our attention on the basis of the work performed to indicate
           that management’s assertions are not presented in all material respects, based on
           the Office of National Drug Control Policy (ONDCP) Circular: Drug Control
           Accounting, May 1, 2007, requirements. We do not plan to express an opinion on
           the accuracy of the National Highway Traffic Safety Administration’s Drug
           Control Obligation Summary and Performance Summary Reports to ONDCP.

           The review of the NHTSA FY 2008 Drug Control Obligation Summary and
           Performance Summary Reports will be provided to ONDCP by February 2, 2009.
           The Program Director for this review is Earl Hedges; the Project Manager is
           Mark Rielly. If you have any questions, please call me at (202) 366-1407 or
           Earl Hedges at (410) 962-3612.

                                                   #
           cc. Antonyio Johnson, NPO-310
               Martin Gertel, M-1
               Thomas Johnson, ONDCP
